                            CLOSEOUT FOR M93030018



declined. He requested and received reconsideration of his proposal by the Assistant
Director of the Directorate for                                   and then, on further
appeal, by the Deputy Directo                                     g the NSF reconsideration
process (NSF Manual 10, section 142).

    The complainant alleged that the declination and reconsideration decisions were wrong,
that the program staff and Assistant Director were professionally unquamed to evaluate his
proposal, that the NSF Affiiative Action Officer was irresponsible, and that someone was
attempting to steal the work in his proposal. OIG reviewed the proposal jacket and found
that the proposal had been declined on the basis of external reviews that were extremely
negative. The reviews strongly questioned the merit of the proposal and the qualifications of
the PI. Different NSF officials reviewed the proposal jacket in each reconsideration process
and independently recommended that the declination be upheld.

     OIG's review of this jacket did not uncover any evidence to support the complainant's
allegations. The proposal's processing and review and both reconsideration processes
complied with NSF's Manual 10, The Proposal and Award Manual (PAM). OIG found that
the complainant had communicated numerous times, by letter and telephone, with the
program staff and NSF officials. Many of these communications contained inappropriate
remarks that were personally and professionally disparaging toward NSF personnel. OIG
found that the NSF correspondence with the PI was proper and professional throughout.

    OIG could find no subhnce to the complainant's allegations. This case is closed
without a finding of 'misconduct.


                                                                        March 31, 1993



Concurrence:


B  ~ w ~ , + 4 5-7357 J i ~
Donald E. Buzzelli
                      , ,
                        9"    - ~/d73              iyzb,-+Lay/-y/-
                                                james J. d v o l ~ &
Deputy Assistant Inspector General for          Assistant Inspector General for Oversight
Oversight



phhP L. Sunshine
Deputy Inspector General

cc:    Assistant Inspector General for Oversight
       Inspector General
